1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

April 15, 2020
Electronic Filing and Overnight Delivery
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re: HSBC Holdings PLC, et al. v. Picard et al., No. 19-277
Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioners in the above-captioned
case respectfully request that the Court delay distribution of the petition for writ of certiorari and
related briefs in this matter until May 12, 2020, and set the case for consideration at the Conference
on May 28, 2020. Petitioners filed a petition for certiorari on August 29, 2019. On December 9,
2019, the Court invited the Solicitor General to file a brief expressing the views of the United
States. On April 10, 2020, the Solicitor General filed a brief recommending that the Court deny
the petition. Petitioners intend to file a supplemental brief responding to the Solicitor General’s
filing. The petition is currently scheduled for distribution on April 28 for consideration at the
Court’s May 14 Conference.
Petitioners are nearly two hundred parties, widely dispersed around the globe, who are
alleged parties to foreign transactions that are the subject of the decision below. Petitioners are
currently dealing with the significant impact on their operations caused by the COVID-19
pandemic. The complications from the pandemic vary from country to country and have
complicated petitioners’ ability to meaningfully confer with counsel and for the various counsel to
confer with each other regarding the response to the Solicitor General’s brief. The requested twoweek delay will permit petitioners to prepare a submission that will be most helpful to the Court.
Petitioners have conferred with respondents’ counsel, who has indicated that all
respondents consent to petitioners’ request.

Beijing

Boston

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

Scott S. Harris
April 15, 2020
Page 2
Respectfully submitted,

Paul D. Clement
cc:

All counsel of record

